APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

9.90%
Fixed

APR for Balance Transfers

9.90%
Fixed

APR for Cash Advances

9.90%
Fixed
None

Penalty APR and When it Applies
How to avoid paying interest on
purchases
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees

Your due date is at least 25 days after close of each billing cycle. We
will not charge you interest on purchases if you pay the entire
balance by the due date each month.
To learn more about factors to consider when applying for or using
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Annual Fee

None

Membership Fee

None

Transaction Fees
None
• Balance Transfer
None
• Cash Advances
Up to 1.00%
• Foreign Transaction
Penalty Fees
Up to $25.00
• Late Payment
None
• Over-the-Credit-Limit
Up to $25.00
• Returned Payment
How we will Calculate Your Balance: We use a method called “average daily balance” (including new
purchases).
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided
in your account agreement.
Military Lending APR: Effective October 1, 2017, Federal law provides important protections to members of
the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The
costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for specified credit transactions
or accounts); and any participation fee charged (other than certain participation fees for a credit card
account).

